@ BECKER GALLAGHER Donna. Wous, 1D.

Briefs and Records Juuie A. KersHNeR, ].D.

CERTIFICATE OF SERVICE

I, William C. Doering hereby certify that 1 unbound
and 1 copy of the foregoing Brief of Amici Curiae 86
Current and 2 Former South Carolina Legislators
Supporting Petitioner in 19-1186, Joshua Baker, in his
official capacity as Director, South Carolina
Department of Health and Human Services v. Julie
Edwards, on her behalf and on behalf of all others
similarly situated, et al., were sent via Two Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 29th day of April, 2020:

John J. Bursch

Bursch Law PLLC

9339 Cherry Valley SE, #78
Caledonia, MI 49316

(616) 450-4235
jbursch@burschlaw.com

Counsel for Petitioner

Alice Clapman

Planned Parenthood Federation of America
1110 Vermont Ave., NW

Suite 300

Washington, DC 20005

(202) 973-4862

alice.clapman@ppfa.org

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED 8790 Governor's Hill Drive Franklin Square
(800) 890.5001 Suite 102 1300 | Street, NW, Suite 400E
www.beckergallagher.com Cincinnati, Ohio 45249 Washington, DC 20005
Timothy J. Newton

Counsel of Record
Murphy & Grantland, P.A.
4406-B Forest Drive
P.O. Box 6648
Columbia, SC 29260
(803)782-4100
tnewton@murphygrantland.com

Counsel for Amici Curiae
All parties required to be served have been
served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 29th, 2020.

William C. Doering, Esq. :

Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249

(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date: 24, 3200

   
   
 
 
 

Notary Public

[seal]

=. \ JOHN D. GALLAGHER
%} Notary Public, State of Ohio

My Commission Expires
February 14, 2023
